DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General

   Implementation Challenges Remain
     In Securing DHS Components’
          Intelligence Systems

            Unclassified Summary




OIG-07-15                     December 2006
                      1
                                                                       U.S. Department of
                                                                       Homeland Security
                                                                       Washington, DC 20528




                             Office of Inspector General
                   Implementation Challenges Remain In Securing DHS
                           Components’ Intelligence Systems
                                    OIG-07-15


We reviewed Top Secret/Sensitive Compartmented Information (TS/SCI) systems under
the Department of Homeland Security’s (DHS) purview. We focused on DHS’
information assurance posture, including the policies and procedures in place for the
department’s intelligence systems. We performed our work at the departmental and
organizational component levels, focusing on the system security controls for a subset of
intelligence systems, according to the requirements in Director of Central Intelligence
Directive 6/3, Protecting Sensitive Compartmented Information Within Information
Systems.

The objective of our evaluation was to determine whether DHS’ information security
program and practices are adequate and effective in protecting the information and the
systems that support DHS’ intelligence operations and assets from unauthorized access,
use, disclosure, disruption, modification, or destruction. We also determined whether
DHS’ privacy program and related activities pertain to its intelligence systems, and
identified whether components have developed or incorporated requirements to protect
intelligence system vulnerabilities into their classification guides. Furthermore, we
conducted detailed assessments of security controls and documentation for DHS’
intelligence systems and assessed the mitigation of system security weaknesses
previously identified as a result of system security vulnerability assessments conducted
for a subset of intelligence systems in Fiscal Years 2004 and 2005. Fieldwork was
conducted from May through August 2006.

DHS formally established the Office of Intelligence and Analysis to implement the
department’s Information Technology security program for its intelligence systems and
assets. We also identified issues regarding the certification and accreditation of DHS’
intelligence systems; Plan of Action and Milestones process; incident detection, handling
procedures, reporting, and analysis process; and information security training and
awareness program for all users of intelligence systems and specialized training for
employees with significant security responsibilities for DHS’ intelligence systems. We
recommended that DHS formally grant the Office of Intelligence and Analysis’ Chief
Information Officer the comprehensive authority to support the management, operation,
and DCID 6/3 accreditation of the department’s intelligence systems, excluding United
States Coast Guard intelligence data systems. DHS management agreed with our
recommendation and has begun taking actions to address the issues raised during our
review. (OIG-07-15, December 2006)
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or e-mail DHSOIGHOTLINE@dhs.gov.
The OIG seeks to protect the identity of each writer and caller.
